HHS/OIG-Audit--"Review of Cost Claimed by the Information Protection and Advocacy Center for People with Disabilities (IPACHI), Washington, D.C. (A-03-00-00500)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Cost Claimed by the Information Protection and Advocacy Center for People with Disabilities, (IPACHI),
Washington D.C.," (A-03-00-00500)
April 17, 2000
Complete
Text of Report is available in PDF format (4.56 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit covered costs claimed by IPACHI during the 3-year period October 1, 1992 through the cessation of IPACHI's
operations in the summer of 1995. The final report points out that IPACHI claimed unallowable costs totaling $725,009 (Federal
share $394, 947). Questioned costs of $289,796 were associated with IPACHI's Executive Director and her spouse. Another
$283,488 was for the cost of a retirement package prepared specifically for the prior Executive Director, a package that
violated provisions of Office of Management and Budget Circular A-122. An additional $146,069 was for legal fees of the
IPACHI corporate counsel who devoted no time to Federal grants. Finally, $5,656 was for donations and entertainment expenses.
Among other things, we are recommending that the Deputy Assistant Secretary for Grants and Acquisition Management coordinate
with the other Federal awarding agencies to take action to seek recovery of the questioned costs from IPACHI, its principals
or the District of Columbia's Department of Human Services, who had oversight responsibility for the fiscal operations
of IPACHI.